    U.S. DEPARTMENT OF JUSTICE 





      Audit                               

     Report

USE OF EQUITABLE SHARING REVENUES 

 BY THE MISSOURI HIGHWAY PATROL 

        STATE OF MISSOURI 


             GR-50-01-008                 


           August 31, 2001





           Department of Justice 

      Office of the Inspector General 

      Chicago Regional Audit Office 

      500 West Madison, Suite 3510 

       Chicago, Illinois 60661-2590

             USE OF EQUITABLE SHARING REVENUES 

              BY THE MISSOURI HIGHWAY PATROL

                      STATE OF MISSOURI 



                       EXECUTIVE SUMMARY


      The United States Department of Justice, Office of the Inspector
General has completed an audit of the use of equitable sharing
revenues by the Missouri Highway Patrol. Equitable sharing revenues
represent a share of the proceeds from the forfeiture of assets seized
in the course of certain criminal investigations. From July 1, 1998,
through June 30, 2000, the Missouri Highway Patrol received a total of
$3,148,322 in equitable sharing revenues. For the same period, the
Missouri Highway Patrol expended a total of $1,748,498 from their
equitable sharing fund.

      We determined that Missouri Highway Patrol generally complied
with Department of Justice guidelines. However, our audit disclosed
that the Missouri Highway Patrol did not separately account for federal
forfeiture funds received from the Department of Justice and the
Department of the Treasury. Contrary to the equitable sharing
agreements that required these funds be accounted for separately, the
Missouri Highway Patrol commingled the receipts into one fund and
prorated the expenditures based on the percentage of revenue
received from each agency.

    The audit results are discussed in the Findings and
Recommendations section of this report. Our audit scope and
methodology appear in Appendix I.




                                  -i-
                             TABLE OF CONTENTS


                                                                                   Page

INTRODUCTION ........................................................................ 1 


      Background ...................................................................... 1 



FINDINGS AND RECOMMENDATIONS ........................................... 3 


      CONTROLS OVER EQUITABLE SHARING FUNDS RECEIPTS 

       AND EXPENDITURES ........................................................ 3 


          Equitable Sharing Funds Received ...................................         3   

          Equitable Sharing Funds Expended ..................................          4   

          Reporting Requirements ................................................      5   

          Views of Responsible Officials .........................................     5   

          Recommendations.........................................................     6   



OTHER REPORTABLE MATTERS.................................................... 7 


      Legislated Deductions......................................................... 7 



APPENDIX I - SCOPE AND METHODOLOGY .................................... 8 

                                        INTRODUCTION


      The United States Department of Justice (DOJ), Office of the
Inspector General has completed an audit of the use of equitable
sharing revenues by the Missouri Highway Patrol. The objectives of
our audit were to assess whether equitably shared cash received by
the Missouri Highway Patrol was accounted for properly and used for
allowable purposes as defined by applicable regulations and guidelines.
The audit covered $3,148,322 in equitable sharing revenues during
Fiscal Years (FY) 1999 and 20001. The audit also covered $1,748,498
expended from the Missouri Highway Patrol equitable sharing fund for
the same 2-year period.

Background

       The primary purpose of the DOJ Asset Forfeiture Program is to
deter crime by depriving criminals of the profit and proceeds of their
illegal activities. A secondary purpose is to enhance cooperation
among federal, state, and local law enforcement agencies by sharing
federal forfeiture proceeds through the DOJ equitable sharing
program. State and local law enforcement agencies may receive
equitable sharing revenues by participating directly with DOJ agencies
in joint investigations leading to the seizure or forfeiture of property.
The amount shared with state and local law enforcement agencies in
joint investigations is based on the degree of the agencies' direct
participation in the case.

      Several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues.
Nonetheless, the DOJ Criminal Division's Asset Forfeiture and Money
Laundering Section is responsible for issuing policy statements,
implementing governing legislation, and monitoring the use of DOJ
equitable sharing funds.

      Generally, the use of equitable sharing revenues by state and
local recipient agencies is limited to law enforcement purposes.
However, under certain circumstances, up to 15 percent of equitable
revenues may be used for the costs associated with drug abuse

1
    The Missouri Highway Patrol fiscal year runs from July 1 through June 30.




                                                   -1-
treatment, drug and crime prevention education, housing programs,
job skills programs, or other nonprofit community-based programs or
activities.

      The United States Department of the Treasury also administers a
similar equitable sharing program, based on seizures, under the
jurisdiction of the United States Customs Service. Our audit was
limited to equitable sharing revenues received by the Missouri Highway
Patrol through the DOJ equitable sharing program.




                                 -2-
                     FINDINGS AND RECOMMENDATIONS

       CONTROLS OVER EQUITABLE SHARING FUNDS RECEIPTS AND
       EXPENDITURES

            Generally, the Missouri Highway Patrol complied with
       Department of Justice guidelines related to equitable sharing
       funds. However, the Missouri Highway Patrol commingled all
       federal forfeiture receipts from the Department of Justice and
       the Department of the Treasury into one fund, and prorated
       the expenditures based on the percentage of revenue received
       from each agency. As a result, Department of Justice
       expenditures could not be tracked separately from the
       Treasury Department expenditures.

      To determine if the Missouri Highway Patrol complied with
pertinent guidelines governing the use of equitably shared assets, we
selected and examined 43 transactions totaling $3,805,853. Further,
we reviewed the FYs 1999 and 2000 Annual Certification Reports to
determine if the Missouri Highway Patrol correctly reported equitable
sharing transactions.

Equitable Sharing Funds Received

      Based on the Missouri Highway Patrol records for FYs 1999 and
2000, it received a total of $3,148,322 in equitable sharing revenues.
This amount includes $2,750,229 in equitable sharing receipts,
$174,984 in other income2, and $223,109 in interest. We selected and
reviewed a sample of 10 percent of the equitable sharing receipts,
choosing the highest dollar amounts from the DOJ Consolidated Asset
Tracking System (CATS) listing of checks sent to the Missouri Highway
Patrol during FYs 1999 and 2000. As a result, we reviewed 13 receipts
totaling $2,437,736.

      All the checks tested were properly accounted for and all but one
were deposited timely. According to Accounting for Federal Asset
Forfeiture Funds, A Guide for State and Local Law Enforcement

2
 The Missouri Highway Patrol sold weapons that were originally purchased with equitable sharing
monies; therefore, the receipts were categorized as other income to the fund.




                                               -3-
Agencies, Section III, Item 5, equitable sharing funds are to be
deposited on the date received or the next business day. One $17,000
check was not deposited until 6 business days after receipt. According
to Missouri Highway Patrol officials, this delay occurred because the
deposit clerk was on vacation and the budget office did not have
anyone assigned to make deposits in her absence. They added that
someone will be designated to back up the deposit clerk’s duties so
that future deposits would be made timely.

      Our reconciliation of the CATS reports of disbursements with the
Missouri Highway Patrol listings of FYs 1999 and 2000 federal
forfeiture receipts identified 12 discrepancies. These errors, however,
appeared on the CATS reports; the Missouri Highway Patrol records
were accurate. The CATS reports listed two disbursements to the
Missouri Highway Patrol in error; the checks were never issued to the
Missouri Highway Patrol. In addition, 10 checks received by the
Missouri Highway Patrol were not identified on the CATS reports.

Equitable Sharing Funds Expended

      During its FYs 1999 and 2000, the Missouri Highway Patrol
expended $1,748,498 in equitable sharing funds. This amount
included expenditures for computer, communications, laboratory, and
technical equipment. We selected and examined a sample of 30
expenditures from FYs 1999 and 2000 totaling $1,368,117. Based on
our testing, we concluded that expenses were used for allowable
purposes in accordance with the Department guidelines related to the
Equitable Sharing program. However, we found that the Missouri
Highway Patrol was not accounting for the funds in accordance with its
equitable sharing agreements.

      The equitable sharing agreements3 signed by the Missouri
Highway Patrol required that the DOJ and the Department of the
Treasury forfeiture funds be accounted for separately. The Missouri
Highway Patrol, however, commingled all federal forfeiture receipts
into one fund and prorated the expenditures based on the percentage
of revenue received from each agency. As a result, DOJ expenditures
could not be separately tracked from the Department of the Treasury

3
 A new equitable sharing agreement was signed in FY 2000; therefore, two agreements were in effect
during our review period.




                                              -4-
expenditures.

      Missouri Highway Patrol officials explained that several years
ago, they requested a separate accounting fund from the State
accounting officials, but their request was denied. We followed up
with State officials, who told us they wanted to limit the number of
funds. According to these officials, they suggested that the Missouri
Highway Patrol use the accounting system within its existing fund
(e.g., organization codes) to separately track DOJ and Department of
the Treasury equitable sharing receipts and expenditures. In our
judgment, this method would bring the Missouri Highway Patrol in
compliance with the equitable sharing agreements.

Reporting Requirements

      The FYs 1999 and 2000 Federal Annual Certification Reports
submitted by the Missouri Highway Patrol showed combined equitable
sharing receipts in the amount of $2,750,229, other income of
$174,984 (from the sale of weapons), and interest earnings of
$223,109 for a total of $3,148,322. The Missouri Highway Patrol
reported equitable sharing expenditures in the amount of $1,748,498
for the same two FYs.

     The appropriate officials signed the Federal Annual Certification
Reports and all items were accurately reported, with one exception.
The FY 1999 Federal Annual Certification Report incorrectly
categorized $85,136 in expenditures. We discussed this with Missouri
Highway Patrol officials who prepared an amended report.

      A June 2000 program audit by Armon Financial Services noted
that the FY 1999 Certification Report was submitted 14 days late.
Missouri Highway Patrol officials told us that the accounting system in
effect at that time included a lengthy year-end closing that made it
impossible to submit the Certification Report timely. A new accounting
system has since been implemented and the FY 2000 report was
submitted timely.

Views of Responsible Officials

     We presented our findings at an exit conference with Missouri
Highway Patrol officials who concurred with our findings.



                                 -5-
Recommendations

    We recommend that the Director of the Asset Forfeiture and
Money Laundering Section:


1. Ensure that the Missouri Highway Patrol appoint an employee to
   perform deposits in the absence of the regular deposit clerk to
   assure timely deposits of equitable sharing checks.

2. Require that the Missouri Highway Patrol comply with the equitable
   sharing agreements by accounting for federal forfeiture receipts and
   disbursements of the Department of Justice separate from the
   Department of the Treasury.




                                 -6-
                  OTHER REPORTABLE MATTERS



Legislated Deductions

      Two unallowable deductions were made from the Federal
Forfeiture Fund. Specifically, in FYs 1999 and 2000, respectively,
$1,479 and $1,235 were transferred from the fund. These were
legislated deductions, which were taken from every state fund to give
the Missouri taxpayers a rebate. Article X of the Missouri Constitution,
popularly called the Hancock Amendment, requires all state funds to
support a Missouri taxpayers rebate in years that the state has excess
monies.

      The equitable sharing guidelines, however, state that the shared
monies are to be used for law enforcement purposes. Missouri
Highway Patrol officials recognized that these deductions were
unallowable and had requested and received reimbursement from the
State of Missouri within the same fiscal year it was deducted. We
were able to verify that the fund had been replenished for our review
period and for two additional fiscal years in which deductions were also
made (FYs 1998 and 2001). Since the Federal Forfeiture Fund was
replenished in a timely manner, we determined that there was no
effect and do not make any recommendations.




                                  -7-
                                                             APPENDIX I


                    SCOPE AND METHODOLOGY

     We conducted our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit covered the period of July 1,
1998, through June 30, 2000.

      In conducting our audit we relied on computer-processed data
contained in the DOJ Consolidated Asset Tracking System (CATS) for
the purpose of determining equitable shares received by the Missouri
Highway Patrol. We did not establish the reliability of data contained
in the CATS system as a whole. However, when the data used is
viewed in context with other available evidence, we believe the
opinions, conclusions and recommendations in this report are valid.

       We performed audit work at the Missouri Highway Patrol
headquarters located in Jefferson City, Missouri. To accomplish the
objectives of the audit, we: (1) interviewed Missouri Highway Patrol
officials; and (2) examined, on a test basis, equitable sharing receipts
and expenditures, financial reports, and other accounting records and
documents.

     In addition, we reviewed laws, regulations and guidelines
governing the accounting for and use of DOJ equitable sharing funds,
which included the following three major guidelines issued by DOJ:

•	   Accounting for Federal Asset Forfeiture Funds, A Guide for State
     and Local Law Enforcement Agencies, dated July 1991;

•	   A Guide to Equitable Sharing of Federally Forfeited Property for
     State and Local Law Enforcement Agencies, dated March 1994;
     and

•	   Addendum to A Guide to Equitable Sharing, dated March 1998.

      We did not test internal controls and compliance with laws and
regulations for the Missouri Highway Patrol as a whole. Instead we
relied on an independent auditor’s report of the Missouri Highway



                                  -8-
Patrol’s Federal Forfeiture Fund for the fiscal year ended June 30,
1999. The audit report stated that the financial records were correct,
internal controls were adequate and effective, and operations and
records were in compliance with established guidelines, policies, and
procedures. We relied upon the independent auditor's assessment,
which disclosed no material weaknesses.




                                  -9-
